                                    NATIONAL SCIENCE FOUNDATlON
                                          4201 WII-SON BOULEVARD
                                         ARLINGTON, VIRGINI~ 22230




                                    --
    OFFICE OF
INSPECTOR GENERAL




   MEMORANDUM

   Date:            September 30, 1997            .
                                                                              -   --. .- -. --   -~
                                                                                                  --   . .----- .. ...   ..   .


   To:              File No. I961 10058

   From             m   e    c       A   i   a   1 Agent, Investigations

   Re:              Close out   -
   Background:

                                       November 1997 that the two principal investigators
                                       n     d       o       r NSF grant no.
   had given themselves stipends in the amount of $20,000 and $10,000 (one stipend each)
   from the NSF grant funds. We investigated to find if the PIShad fraudulently used federal
   funds.

   Investigation:

    We reviewed the program jackets for this project and found tha-larv                  in the
    budget for year 4 of the project had been revised from $51,618 to $71,074, and
 om
  -                    $58,034 to $71,723. We examined the program jacket and found no
    budget justification explaining this increase although the PIS had slightly increased their
    level of effort. The cognizant NSF program officer approved and signed the revised
    budget. When questioned about the salary revisions, the program officer adrmtted that
    she had not noticed rhis increase when she approved the budget. She stated, however,
    that the increase, although substantial, was justified. She explained that salaries are
    determined b y o t NSF. The program officer remembered t h a t a s given
    a raise because of an-e uity issue when she was tenured. She said that both salaries had to
    be authorized by &fore         being calculated in the NSF budget.

   In addition to reviewing the PI'S salaries, we reviewed account summaries, travel
   vouchers, and vendor/participant support payments charged to the NSF grant. This
   review found no evidence of fraud.
